                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                OFFICE OF INSPECTOR GENERAL




                           FINAL REPORT:

                 Election System of the Virgin Islands'
                Compliance with the Help America Vote
                              Act of 2002




Report No.
E-HP-VI-01-13
October 2013
                                U.S. ELECTION ASSISTANCE COMMISSION

                                       OFFICE OF INSPECTOR GENERAL

                                     1335 East West Highway - Suite 4300

                                           Silver Spring, MD 20910



Memorandum

October 31, 2013

To:	        Alice Miller
            Acting Executive Director

From:	      Curtis W. Crider
            Inspector General

Subject: 	 Final Performance Audit Report – Election System of the Virgin Islands'
           Compliance with the Help America Vote Act of 2002 (Assignment Number
           E-HP-VI-01-13)

         Attached for your review and comment is the report entitled Election System of the
Virgin Islands' Compliance With the Help America Vote Act of 2002, dated August 2013. The
review was conducted by the U.S. Department of the Interior, Office of Inspector General
(DOIOIG) on behalf of the U.S. Election Assistance Commission, Office of Inspector General.

       In its audit, the DOIOIG found that Election System of the Virgin Islands' (ESVI) lax
posture on internal controls put $3.3 million in HAVA funds and other funding at risk of fraud,
waste, or mismanagement. The audit found:

   •	    no supporting documentation or certification for payroll activities;
   •	    circumvention of procedures established to prevent the abuse of work time;
   •	    no written justification or comparison quotes for small purchases;
   •	    inaccurate and late Federal Financial Reports, including financial reports due months ago
         that still have not been submitted;
   •	    no supporting documentation for funds spent and transferred between bank accounts;
   •	    poor accounting for fees collected, making program income vulnerable to fraud, waste,
         and mismanagement;
   •	    a petty cash account for the Office that is susceptible to misuse because it is managed by
         one person;
   •	    no inventory records for Office property, leaving voting and office equipment

         unaccounted for;

   •	    noncompliance with HAVA-required expenditure levels for local elections for 4 fiscal
         years; and
   •	    noncompliance with administrative complaint procedures, resulting in voters’ grievances
         not being addressed.
         As a result, DOIOIG questioned the ESVI’s Office of Supervisor of Election (Office)
ability to properly account for any of the HAVA funds it received. DOIOIG specifically
questioned approximately $1.1 million associated with payroll and procurement deficiencies,
inaccurate and late financial reporting, unsecured equipment, and unreported program income.

        In its September 30, 2013 response to the draft report (Attachment A-1), the Government
of the Virgin Islands provided comments to the findings and corrective actions, as applicable, to
address the recommendations. Also included in the report, is the EAC response to the draft
report (Appendix A-2), which indicated that the EAC would work with the Government of the
Virgin Islands to ensure corrective action.

       We would appreciate being kept informed of the actions taken on our recommendations
as we will track the status of their implementation. Please respond in writing to the findings and
recommendation included in this report by December 31, 2013. Your response should include
information on actions taken or planned, targeted completion dates, and titles of officials
responsible for implementation.

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

       If you have any questions regarding this report, please call me at (202) 734-3104.



Attachments


cc: Director of Grants and Payments
                                      AUDIT




 ELECTION SYSTEM OF THE VIRGIN
 ISLANDS’ COMPLIANCE WITH THE

 HELP AMERICA VOTE ACT OF 2002 





Report No.: VI-RR-OIG-0001-2013    August 2013
               OFFICE OF
               INSPECTOR GENERAL
               U.S.DEPARTMENT OF THE INTERIOR



Curtis Crider 	                                                                AUG0 8 2013
Inspector General
U.S. Election Assistance Commission
Office of Inspector General
1201 New York Avenue, NW.
Suite 300
Washington, DC 20005

Re: 	   Final Audit Report - Election System of the Virgin Islands' Compliance With the Help
        America Vote Act of 2002
        Report No. VI-RR-OIG-0001-2013

Dear Mr. Crider:

       This report presents the results of our audit of the Election System of the Virgin Islands '
(ESVI) compliance with the requirements of the Help America Vote Act of2002 (HAVA).

        Our audit revealed an absence of basic internal controls at ESVI's Office of the
Supervisor of Elections (Office). This environment has led to the mismanagement and poor
administration ofHAVA funds . Our findings included deficiencies in payroll and procurement,
internal controls, and property management, as well as inaccurate and late financial reporting and
unreported program income. We also found that ESVI did not meet all ofHAVA's
administrative requirements.

       ESVI's lax posture on internal controls has put $3.3 million in HAVA funds and other
funding at risk of fraud, waste, or mismanagement. We offer 20 recommendations designed to
improve the Office' s internal controls and its implementation ofHAV A.

       We appreciated the opportunity to work with you on this project. If you have any
questions concerning this report, you may contact me at 202-208-5745 or Hannibal Ware,
Eastern Regional Manager, at 703-487-8058.




                                                          Mary L. 

                                                          Deputy Inspector General 





                               Office of Inspector General I W ashington. DC
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 2

       Objective ......................................................................................................... 2

       Background ..................................................................................................... 2

Findings................................................................................................................... 4

      Payroll and Procurement Deficiencies ............................................................ 4

      Inaccurate and Late Financial Reporting......................................................... 5

      Unreported Program Income ........................................................................... 6

      Deficiencies With Internal Controls for Imprest Fund Checking Account ..... 8

      Property Management Deficiencies................................................................. 9

      ESVI Did Not Meet All of HAVA’s Administrative Requirements ............. 10

Conclusion and Recommendations....................................................................... 13

      Conclusion ..................................................................................................... 13

      Recommendations Summary......................................................................... 13

Appendix 1: Scope and Methodology................................................................... 15

      Scope ............................................................................................................. 15

      Methodology.................................................................................................. 15

Appendix 2: Monetary Impact .............................................................................. 16

Results in Brief
We received a request from the U.S. Election Assistance Commission (EAC)
Office of Inspector General to review the Election System of the Virgin Islands’
(ESVI) compliance with the Help America Vote Act of 2002 (HAVA). In
response, we audited ESVI’s compliance with HAVA and other applicable
administrative requirements.

We found a reluctance to adhere to even the most basic internal controls at
ESVI’s Office of the Supervisor of Elections (Office). This environment has led
to the mismanagement and poor administration of HAVA funds by the Office.
During our audit, we found—

   •	 no supporting documentation or certification for payroll activities;
   •	 circumvention of procedures established to prevent the abuse of work
      time;
   •	 no written justification or comparison quotes for small purchases;
   •	 inaccurate and late Federal Financial Reports, including financial reports
      due months ago that still have not been submitted;
   •	 no supporting documentation for funds spent and transferred between
      bank accounts;
   •	 poor accounting for fees collected, making program income vulnerable to
      fraud, waste, and mismanagement;
   •	 a petty cash account for the Office that is susceptible to misuse because it
      is managed by one person;
   •	 no inventory records for Office property, leaving voting and office

      equipment unaccounted for;

   •	 noncompliance with HAVA-required expenditure levels for local elections
      for 4 fiscal years; and
   •	 noncompliance with administrative complaint procedures, resulting in
      voters’ grievances not being addressed.

As a result, we question the Office’s ability to properly account for any of the
HAVA funds it received. We specifically question approximately $1.1 million
associated with payroll and procurement deficiencies, inaccurate and late financial
reporting, unsecured equipment, and unreported program income.




                                                                                   1
Introduction
Objective
The objective of this audit was to determine whether the Election System of the
Virgin Islands (ESVI) expended Help America Vote Act of 2002 (HAVA)
payments in accordance with the act and related administrative requirements, and
whether it complied with the HAVA requirements for replacing punch card or
lever voting machines, establishing an election fund, and maintaining Virgin
Islands expenditures for elections at a level not less than what was expended in
fiscal year (FY) 2000. We performed this audit at the request of the U.S. Election
Assistance Commission’s (EAC) Office of Inspector General.

See Appendix 1 for the full scope and methodology we followed to perform this
audit.

Background
HAVA was enacted to set minimum election administration standards for State
and local governments. As part of this goal, HAVA established a program that
provides funds to State and local governments to—

   •   meet specific voting requirements;
   •   improve the administration of Federal elections;
   •   educate voters;
   •   train election officials and poll workers;
   •   develop State plans; and
   •   improve, acquire, or replace voting equipment.

The program also provides funds to improve the accessibility and quality of
polling places and to set up hotlines for voters so that they can obtain election
information or report fraud or voting rights violations.

In addition, HAVA established EAC to—

   •   issue guidelines;
   •   make grant awards;
   •   provide oversight, monitoring, and technical assistance; and
   •   review the use of HAVA funds.

In the U.S. Virgin Islands, HAVA is administered by ESVI’s Office of the
Supervisor of Elections (Office). The Office fulfills ESVI’s day-to-day
administration. ESVI’s policymaking bodies are the Joint Board of Elections, the
St. Thomas-St. John District Board of Elections, and the St. Croix District Board
of Elections. Our audit focused primarily on the Office’s HAVA-related activities.




                                                                                    2
In July 2003, a committee of Virgin Islands representatives developed a State plan
to implement HAVA requirements. ESVI received $3.3 million in funds under
Titles I and II of HAVA to carry out the improvements outlined in the plan. As of
December 2011, ESVI had expended $1.8 million of these funds. Title I funds
were awarded for election administration improvements and for replacement of
punch card and lever voting machines. Title II funds were awarded to meet Title
III requirements for voting system standards, provisional voting, and
implementing a computerized voter registration list.

In accordance with HAVA, the Virgin Islands Election Fund was established by
Act 6584 of the Virgin Islands Legislature. Act 6584 requires the Commissioner
of Finance to administer the Election Fund as a separate and distinct fund in the
Government’s treasury. The Election Fund should consist of amounts
appropriated by the Legislature, all HAVA payments made to the Virgin Islands,
and interest earned on HAVA funds, which is used to carry out more HAVA
activities. HAVA funds are transferred from the Election Fund, which is a savings
account, to a fund known as the “Special and Other Fund,” which is a checking
account used by ESVI and other Virgin Islands Government agencies. Both funds
are managed by the Virgin Islands Department of Finance (DOF).




                                                                                3
Findings
We found that the Office disregarded the basic tenet of internal controls, which
protects the integrity of any organization. Specifically, we found major
deficiencies in the administration of payroll, procurement, financial reporting,
program income, imprest (petty cash) fund, and property. Moreover, ESVI did not
meet all of HAVA’s administrative requirements for fiscal year funding levels
and administrative complaint procedures.

Of the $1.8 million in HAVA funds ESVI expended, we question over $1.1
million—approximately 60 percent—because of the discrepancies we found in
these areas (see Appendix 2).

Payroll and Procurement Deficiencies
Federal salary and wage standards require payroll charges to be supported by
proper documentation and periodic certification of hours worked. We found,
however, that the Office could not provide documentation to identify employees
who worked on HAVA projects or the pay periods and hours for which
employees were paid with HAVA funds. It also could not certify the amount of
time employees spent on HAVA-related activities.

The Office spent $438,452 of HAVA Title I funds for salaries from September
2003 to December 2007. According to Office officials, three employees were paid
with HAVA funds; however, we received documentation to support payroll costs
for just two employees. Because the Office could not provide complete supporting
documentation, we question $221,129 of the amount it claimed.

Furthermore, the Office could not provide documentation certifying the hours
worked on HAVA-related activities. Office officials told us that they used
logbooks to record time and attendance, but when we requested the logbooks to
support the payroll costs charged to HAVA, they could not provide them.

We also found that the Office circumvents the Government of the Virgin Islands’
biometric punch clock system, which uses employees’ fingerprints to log their
arrival and departure times. This system, implemented Governmentwide to
prevent the abuse of work time, was installed at the Office in June 2012, but most
of the Office’s employees have never used it. Because the Office did not provide
time and attendance records and the system was not being used, there was no
assurance that Office employees were not abusing time. This potential for abuse
could affect not only HAVA funds, but also any other funding the Office uses for
payroll.

Finally, the Office did not follow procurement rules and regulations for small
purchases, which require comparison quotes from vendors and written
justification letters to support purchases up to $50,000. We reviewed five small
purchases for services and equipment, totaling $17,149, and discovered that none

                                                                                 4
were supported by comparison quotes or written justification. We therefore
question the entire $17,149.

 Recommendations

 We recommend that EAC require the Office to:

    1. Maintain documentation to support all payroll costs related to HAVA;

    2. Certify payroll costs to ensure that HAVA funds are used properly; and

    3. Follow procurement requirements for small purchases.


Inaccurate and Late Financial Reporting
Federal regulations require that a State’s financial management system include
accounting procedures to ensure accurate, current, and complete financial
reporting. These procedures should identify the source and application of funds
and include accounting records supported by source documents.

The Office could not provide supporting documents for $123,166 in Title I funds
to procure voting machines and services such as advertising, printing, training,
and travel. It also transferred $1,974,111 from the Election Fund to the Special
and Other Fund between July 2004 and October 2011. Of this amount, the Office
could not provide supporting documentation for $161,593. Because the Office did
not provide supporting documentation for these two amounts, we question the
total, $284,759.

In addition to Federal regulations over accounting procedures, EAC requires the
Office to file annual Federal Financial Reports detailing all HAVA-related
activities. Financial activities for Title I and II funds are reported on separate
forms and must be submitted by the end of each calendar year. We found several
inaccuracies in the Office’s reports. For example, the Office—

   •   over-reported $238,898 in Title II funds in FY 2010;
   •   did not report $878 in Title I funds spent in calendar year 2005; and
   •   did not report $331 in interest income during the period we reviewed.

Moreover, the Office submitted its Federal Financial Reports late eight times—
with an average delay of over 6 months—and, as of March 2013, it still had not
prepared its reports for FY 2012. The Office also arbitrarily changed its reporting
period from fiscal year to calendar year without EAC’s approval. The Office’s
inaccurate and late financial reporting brings into question the reliability of the
information that EAC uses to carry out its responsibility for oversight and
monitoring of HAVA funds.


                                                                                     5
 Recommendations

 We recommend that EAC require the Office to:
    4. Provide documentation to support HAVA funds expended; and

    5. File accurate, on-time Federal Financial Reports and submit the FY 2012
       report.


Unreported Program Income
Under Federal regulations, program income includes income from fees collected
by an agency for services it performs. HAVA program income comes from fees
collected for late campaign disclosures, voter registration lists, and other election-
related services. EAC requires that the Office’s program income be dedicated to
uses permitted under HAVA and that it be reported on its Federal Financial
Reports.

The Office collected program income for different purposes and deposited those
fees into two separate accounts. Fees collected to replace voter identification
cards were deposited into the Special and Other Fund, which is maintained by the
Department of Finance (DOF). Fees collected for late campaign disclosures, voter
registration lists, and other election-related services were deposited into the
Office’s Imprest Fund Checking Account (Account), a petty cash account
maintained solely by the supervisor of elections.

The Office claimed it collected $113,345 in program income during the period we
reviewed and that it deposited the funds into the accounts. Because the Office did
not provide basic accounting records to support its claim, however, we could not
ensure that all of the fees it collected had been deposited.

For example, the Office’s St. Thomas location did not give us any cashier receipts
and deposit slips to verify fees collected and deposited. The only documentation
St. Thomas provided was interoffice memoranda to the supervisor and summaries
to DOF prepared from October 2006 to December 2012. During that time, the
Office reported collecting fees of $52,946.

The St. Croix location provided more supporting documentation for its claim of
$60,399 in collections. Due to discrepancies in reports, cashier receipts, and
deposit slips, however, we question whether all fees collected had been deposited.
For example, we found the following:

   •	 In eight instances, fee collectors did not maintain the required number of
      copies of receipts for voided transactions. In one of these instances, the
      amount recorded on a voided receipt was also reported as collected and
      deposited.


                                                                                     6
   •   In two instances, dates on cashier receipts were changed to reflect fee
       collections and deposits made later (see Figure 1):




       Figure 1. Altered dates on cashier receipts (dates circled).

   •	 In some instances, cashier receipts totaled more than the amounts

      deposited; other receipts totaled less.


These examples are potential fraud indicators, exposing an environment of poor
collection practices and an absence of internal controls.

In addition, although EAC requires that program income be used only for HAVA-
related activities, we found that the Office instead used the $113,345 it claimed to
have collected for its operating expenses, such as office supplies. The Office also
did not report any program income on its Federal Financial Reports.




                                                                                   7
 Recommendations

 We recommend that EAC:

    6. Require the Office to accurately determine the total amount of
       unreported program income collected;

    7. Require the Office to amend its Federal Financial Reports to include
       program income earned from FY 2003 to FY 2011;

    8. Require the Office to report program income earned for FY 2012 and
       future reporting periods;

    9. Work with the Office to resolve the unreported program income of
       $113,345;

    10. Require the Office to establish adequate controls by maintaining
        reports, cashier receipts, and deposit slips to ensure that the amounts
        collected for program income are reported and deposited; and

    11. Require the Office to deposit all program income into the Election
        Fund.


Deficiencies With Internal Controls for Imprest
Fund Checking Account
In June 1998, the Virgin Islands Legislature passed Act No. 6239, establishing the
Imprest Fund Checking Account (Account) for the Office. The act gave the
supervisor of elections sole authority to write checks from the Account. The act
also established the Voter Identification and Registration Fund, which consists of
all sums appropriated by the Legislature and all fees collected by the Office to
replace voter identification cards.

Monies in the Voter Identification and Registration Fund are disbursed into the
Account by the Commissioner of DOF. Although DOF is responsible for
maintaining a record of all monies deposited and disbursed from the Account,
DOF officials confirmed that the Office was managing this Account—and doing
so separately from DOF’s financial system.

We attempted to review the transactions in the Account. Beginning in January
2013, we made many requests to the Office for the 123 bank statements covering
the period from October 2002 to December 2012. The Office eventually provided
6 statements in April 2013, and DOF also provided the 24 bank statements it had
received from the supervisor—altogether, less than a quarter of the statements we
requested. The 30 statements we reviewed had deposits totaling $22,250. Because
we did not receive all of the statements and many of the statements we received

                                                                                  8
had pages missing, we were unable to determine the entire amount deposited into
the Account. Furthermore, we were unable to determine whether the funds were
used for legitimate purposes.

In addition to our difficulties obtaining the Account’s bank statements, we are
concerned about the Account’s transactions. In the 30 statements we reviewed, we
found 5 instances in which the supervisor wrote checks to himself. The checks’
memo lines simply stated that the payments were reimbursements. In addition to
writing checks, the supervisor was the only one making deposits into the Account.
Moreover, the Account was not reconciled internally, but by an external
contractor—a contractor who reported directly to the supervisor.

A fundamental element of strong internal controls is the segregation of certain key
duties. Segregation of duties, including making deposits, writing checks, and
reconciling accounts, reduces the likelihood of undetected fraud, waste, and
mismanagement. Because duties surrounding the Account were not segregated,
the Account was left susceptible to misuse. We referred this issue to our Office of
Investigations for further review.

 Recommendations

 We recommend that EAC:

    12. Require the Office to stop depositing HAVA-related fees into the
        Imprest Fund Checking Account; and

    13. Require the Joint Board of Elections to establish safeguards to mitigate
        the potential fraudulent use of the Imprest Fund Checking Account.


Property Management Deficiencies
The Code of Federal Regulations (41 C.F.R. § 105-71.132) states that a property
control system must have adequate safeguards to prevent loss, damage, or theft of
property. Property records should include property descriptions, serial numbers,
identification numbers, sources, acquisition dates, locations, cost, and condition.
In addition, a physical inventory of property must be taken and the results
reconciled with the records at least once every 2 years.

We found that the Office did not maintain detailed property records to properly
account for all of the equipment it purchased with HAVA funds. We were able to
verify that the Office spent $550,189 for voting machines, e-poll books, servers,
and other items, but we could not locate the items on the Office’s inventory lists.
We also received incomplete inventory lists, which prevented us from tracing
pieces of equipment from the lists to their physical location or vice versa. The
absence of property records makes it impossible to ascertain the location and



                                                                                   9
condition of the equipment. For these reasons, we question the $550,189 the
Office spent on equipment.

Moreover, the Office did not conduct any of the required physical inventories of
equipment. None of the officials we interviewed could remember the last time a
physical inventory had been conducted.

When equipment is no longer needed for the original project or program, an
agency must request disposition instructions from the awarding agency. Office
officials informed us that they did not know the Federal procedures for disposing
of equipment. Although the Office’s St. Croix location gave us a 2010 list of
disposable items, Office officials did not know if the items had actually been
disposed of.

 Recommendations

 We recommend that EAC require the Office to:

    14. Immediately conduct a physical inventory to gain control of and
        account for equipment. The inventory should include property
        descriptions, serial numbers, identification numbers, source of
        property, acquisition dates, property locations, cost, and condition;

    15. Conduct physical inventories at least once every 2 years and reconcile
        them to property records; and

    16. Reconcile any equipment previously disposed of and adhere to Federal
        guidelines for future disposals.


ESVI Did Not Meet All of HAVA’s Administrative
Requirements
HAVA requires States using Title II funds to maintain expenditures at least at the
amount expended in FY 2000. The requirement was intended to prevent State
governments from using HAVA funds instead of local funds. For ESVI, this
expenditure level was $1.4 million.

We found that the Government of the Virgin Islands did not comply with the
expenditure requirement during FYs 2003, 2004, 2012, and 2013, for a total
shortage of $1,028,303 (see Figure 2). According to EAC guidance, when States
fail to meet the established expenditure requirement, the issue is to be addressed
through EAC’s audit resolution process.




                                                                                 10
                  Maintenance of Expenditures
                  *Indicates FYs Underfunded
 $2,500,000

 $2,000,000

 $1,500,000

 $1,000,000

   $500,000

         $0
              2003* 2004* 2005 2006 2007 2008 2009 2010 2011 2012* 2013*

                                     Current FY Expenditure


Figure 2. ESVI expenditures from FY 2003 to FY 2013. The black dotted line indicates FY
2000 expenditure levels of $1.4 million.

HAVA also requires that States establish administrative complaint procedures as a
condition of receiving funds. The procedures must be uniform and
nondiscriminatory; any person who believes that there is a violation of any
provision of Title III may file a written, notarized complaint. The complainant
may also request a hearing. If a violation is found, the State is required to provide
the appropriate remedy. If the complaint is dismissed, the results should be
published. According to the procedures, the State must make a final determination
about the complaint within 90 days from the date it is filed.

We found that the Office did not adequately follow HAVA’s administrative
complaint procedures. We reviewed all 13 notarized complaints recorded for 2
election cycles and found that the Office had not responded to 12 of them. For the
one complaint the Office did respond to, we did not find any documentation to
prove that the issue had been resolved.

We also found that complaint files were incomplete and disorganized. Complaints
recorded in logbooks were not found in complaint files. Further, complaints were
loosely filed and detached from their supporting documents; resolutions were not
kept with original complaints; and we were not provided complaints addressed to
board members, which are logged separately from complaints to the Office.

These issues concerning the administrative complaint procedures and maintaining
complaint files indicate that ESVI did not follow HAVA administrative
requirements, resulting in voters’ grievances not being addressed.




                                                                                          11
Recommendations

We recommend that EAC:

  17. Require the Government of the Virgin Islands to maintain expenditures
      at the FY 2000 expenditure level as required by HAVA § 254(a)(7);

  18. Address the failure to meet established expenditure requirements
      through its audit resolution process;

  19. Require the Office to adhere to administrative complaint procedures in
      accordance with HAVA § 402(a); and

  20. Require the Office to maintain a complete complaint file that includes,
      at a minimum, all complaints, responses, records of hearings, and
      outcomes.




                                                                                12
Conclusion and Recommendations
Conclusion
Internal controls promote efficiency, reduce fraud risks, and help ensure the
integrity of operations and compliance with applicable laws and regulations. To
be effective, internal controls require the maintenance of proper records for the
flow of timely, relevant, and reliable information.

A sound internal control environment would have mitigated the deficiencies we
found in the Office’s administration of payroll, procurement, financial reporting,
program income, imprest fund, and property. In addition to these deficiencies,
basic HAVA requirements for maintaining a funding level and adhering to
administrative complaint procedures were not attained. ESVI’s lax posture on
internal controls has put $3.3 million in HAVA funds and other funding at risk of
fraud, waste, or mismanagement.

We have forwarded information about the Imprest Fund Checking Account to our
Office of Investigations for further examination.

Recommendations Summary
We recommend that EAC:

   1.	 Require the Office to maintain documentation to support all payroll costs
       related to HAVA;

   2.	 Require the Office to certify payroll costs to ensure that HAVA funds are
       used properly;

   3.	 Require the Office to follow Federal and local requirements for small
       purchases;

   4.	 Require the Office to provide documentation to support HAVA funds
       expended;

   5.	 Require the Office to file accurate, on-time Federal Financial Reports and
       submit the FY 2012 report;

   6.	 Require the Office to accurately determine the total amount of unreported
       program income collected;

   7.	 Require the Office to amend its Federal Financial Reports to include
       program income earned from FY 2003 to FY 2011;

   8.	 Require the Office to report program income earned for FY 2012 and
       future reporting periods;


                                                                                    13
9.	 Work with the Office to resolve the unreported program income of
    $113,345;

10. Require the Office to establish adequate controls by maintaining reports,
    cashier receipts, and deposit slips to ensure that the amounts collected are
    reported and deposited;

11. Require the Office to deposit all program income into the Election Fund;

12. Require the Office to stop depositing HAVA-related fees into the Imprest
    Fund Checking Account;

13. Require the Joint Board of Elections to establish safeguards to mitigate the
    potential fraudulent use of the Imprest Fund Checking Account;

14. Require the Office to immediately conduct a physical inventory to gain
    control of and account for equipment. The inventory should include
    property descriptions, serial numbers, identification numbers, source of
    property, acquisition dates, property location, cost, and condition;

15. Require the Office to conduct physical inventories at least once every 2
    years and reconcile to property records;

16. Require the Office to reconcile any equipment previously disposed of and
    adhere to Federal guidelines for future disposals;

17. Require the Government of the Virgin Islands to maintain expenditures at
    the FY 2000 expenditure level as required by HAVA § 254(a)(7);

18. Address the failure to meet established expenditure requirements through
    its audit resolution process;

19. Require the Office to adhere to administrative complaint procedures in
    accordance with HAVA § 402(a); and

20. Require the Office to maintain a complete complaint file that includes, at a
    minimum, all complaints, responses, records of hearings, and outcomes.




                                                                               14
Appendix 1: Scope and Methodology
Scope
We conducted this audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

Our scope included a review of activities and transactions that occurred from
October 2002 to December 2012. We performed our work from December 2012
to April 2013. Our scope was limited by Office officials’ inability to provide all
records for payroll, program income collected, the Imprest Fund Checking
Account, and complaints. To accomplish our audit objective, we reviewed records
and interviewed Election System of the Virgin Islands (ESVI) officials. We also
conducted site visits of ESVI offices in the St. Thomas-St. John and St. Croix
Districts, and the Departments of Finance and Property and Procurement. We also
interviewed officials at the Office of Management and Budget and the Bureau of
Information Technology.

During the audit, several obstacles arose that limited the scope of our work. The
Office was unable to supply documentation for almost everything we asked to
review, including supporting documentation or certifications for payroll, written
justification or comparison quotes for small purchases, support for funds spent
and transferred between bank accounts, and inventory records for Office property.
As a result, we were unable to review all transactions and determine the full
extent of the discrepancies we noted.

Methodology
To accomplish our objective, we reviewed the entire universe of Help America
Vote Act payroll charges, Federal Financial Reports, Election Fund transfers,
program income, Imprest Fund Checking Account bank statements, and ESVI’s
annual budgets. We also selected a judgmental sample in the area of procurement
and reviewed all of the administrative complaints on file at the Office.

We also reviewed computer-processed data provided by the Virgin Islands
Department of Finance for calendar years 2003 to 2009. We assessed the
reliability of the data as part of our review and noted major discrepancies. We did
not use the data for the purpose of our review; thus, the data did not affect the
performance of our audit steps.




                                                                                 15
Appendix 2: Monetary Impact

Questioned Costs
 Unsupported Costs:
   Payroll and Procurement Deficiencies        $238,278
   Inaccurate and Late Financial Reporting     $284,759
 Unsecured Equipment                           $550,189
Total Questioned Costs                       $1,073,226
Funds To Be Put to Better Use
 Unreported Program Income                     $113,345
Total Funds To Be Put to Better Use           $113,345
Overall Monetary Impact                      $1,186,571




                                                          16
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
                                                                                          APPENDIX A-1




                                Tm UNITED
                                THE        Surns V
                                    Uxrrsp STATES Vrncrn
                                                  VIRGIN    Isllr.los
                                                    IRGIN IISLANDS
                                                             SLANDS
                                           OFFICE
                                           OFFICE O
                                           OFFICE  F THE GOVERNOR
                                                  OFTHE  GOV€RNOR
                                             GOVERNMENT HHOUSE
                                             GOVERNMENT   O USE

                                        Charlotte
                                        Charlotte Amalie,
                                                  Amalie, V.I
                                                          V.I.. 00802
                                                          V.I.  00802
                                               34-77+0iJ,0lI
                                               340-774-0001
                                               340-774-000

                                         September
                                         September 30,
                                                   30, 2013
                                                       2013




Mr. Curtis Crider
Mr. Curtis  Crider
Inspector General
U.S. Election Assistance Commission
Office of Inspector General
l20l New York Ave. NW Suite 300
1201
Washington,
Washington, DCDC 20005

Dear Inspector General
               General Crider:

       This correspondence acknowledges receipt of
                                                of your letter dated August
                                                                     August 16
                                                                             16,
                                                                               , 2013 seeking
                                                                             16,2013
my review and comments on the proposed report entitled Election System of  the Virgin Islands
                                                                        ofthe         Islands''
                         4m"r;.u Vote
Compliance with the Help America
Compliance                       Uote Act of
                                          of 2002 (HA
                                                   (HAVA).
                                                       VA).

         On behalf of the Government
            behalf of      Govemment of                        (GVI),, and the Election System
                                        of the Virgin Islands (GVI)
                                                               (GVl)                        System of    the
                                                                                                      of the
                (EsvI),, 1I would like to thank the U.s.
virgin Islands (ESVI)
Virgin                                                U.S. Department
                                                           Department of  of the Interior,
                                                                                 Interior , office of the
                                                                                            Office   of
Inspector General and the u.S.
Inspector                    U.S. Election Assistance commission
                                                        Commission (EAC), Officeoflice of   the Inspector
                                                                                        of t}le  Inspector
General for its review of
                        of the Election System ofof the virgin
                                                        Virgin Islands'
                                                                Islands ' proposed report, and alsoal so for
its continued
    continued support and willingness            collaboratively with ESVI to ensure that
                            willingness to work collaboratively                                 corrective
                                                                                          that corrective
actions are implemented
            implemented that sufiiciently
                               sufficiently address
                                            address the deficiencies
                                                        deficiencies and recommendations.
                                                                            recommendations.

       The Election System  of the Virgin Islands
                    System of                                Supervisor ofthe
                                          Islands has aa new Supervisor of the Board
                                                                               Board of
                                                                                      of Elections
                                                                                         Elections
and a newly elected
            elected board.
                    board. The Supervisor
                                 Supervisor along
                                             along with                      feverishly to comply
                                                   with her team is working feverishly     comply
with the recommendations of the U.s.
     the recommendations        U.S. Election Assistance Commission. Enclosed,
                                              Assistance commission. Enclosed , for your
review      acceptance, is the ESVI's
review and acceptance,          ESVI's rcsponse
                                         response to each of
                                                          of the recommendations,
                                                                 recommendations , and the person
responsible
responsible and
            and the
                the due date,
                        date,, and,/or
                        date   and/or implementation
                                       implementation date.

         Thank you
                you for
                      for the
                          the opportunity afforded the GVI to review
                                                               review and comment on the      Draft
                                                                                          the Draft
Audit
Audit Report.
        Report. II am confident
        Report.        confident that
                                 that the Supervisor and ESVI will
                                          Supervisor and       will continue    proactively pursue
                                                                    continue to proactively  pursue
firll
full compliance
      compliance in  accordance with
                  in accordance with the  Help America
                                      the Help America Vote
                                                        Vote Act    2002 (IIAVA).
                                                                 of 2002
                                                             Act of       (HA VA).
                                                                          (HAVA).


                                      ~p.'~
                                      ~1t~
                                         Sincerely.

                                      KflI
                                      ~ de
                                         de19ll~/Jr
                                           ':fGl;~/JI
                                      Q"fJ".a"\
                                           P.
                                         Governor
                                         Govemor
                                                                                     APPENDIX A-1



                            Election System of the Virgin Islands
                                                          lslands 

                          Response to the Draft Letter Audit Report 

                       Of the Office
                       Ofthe  Oflice ofthe
                                     of the U.S. Department of Interior,
                                                 Department ofInterior,
                       Oflice of the Inspector General on behalf
                       Office                             behalf of the
                            U.S. Election Assistance
                                           Assistance Commission
                                                      Commission
                      (Report No. VI-RR-OIG-0001-2013,
                                   VI-RR-OIG-0001-2013, August
                                                           August 2013)



FINDINGS

   •o   Payroll and Procurement Deficiencies 

   •o   Inaccurate and Late Financial
                            Financial Reporting 

   •.   Uffeported Program Income
        Unreported
   •r   Deficiencies With Internal
                          Intemal Controls
                                   Controls for Imprest Fund Checking Account
   •.   Property Management Deficiencies 

   •o                             of HAVA's Administrative
        ESVI Did Not Meet ALL ofHAVA's        Administrative Requirements 


tslection Systems of
Election          of the Virgin Islands (ESVI) disregarded
                                                disregarded the basic tenet of
                                                                            of internal
                                                                               intemal controls,
which protects the integrity
                   integrity of
                             of any organization.
                                    organization. Specifically, major deficiency in the
administration of
               of payroll, procurement, financial reporting,
                                                   reporting, program income, imprest (petty cash)
fund, and property were found.


Recommendations (Election Assistance Commission
Recommendations                                 (EAC))
                                     Commission (EAC»

   L Require the Office to maintain documentation
   I.                                   documentation to support all payroll costs related to Help
       America Vote
                Vote Act
                       AcI of       (HAVA).
                           of 2002 (HA
                                    (HAV V A).
   2. Require the Office to certify payroll costs to ensure that HAVA funds are used properly.
   2.
   3. Require the Office to follow Federal and local requirements for small purchases.
   3.
   4. Require the Office to provide documentation
   4.                                 documentation to support HA HAVA
                                                                     VA funds expended.
   5. Require the Office to file accurate, on-time
   5.                                       on-time Federal Financial Reports and submit
                                                                                    submit the FY
       2012 report.
   6. Require the Office to accurately determine the total amount of
   6.                                                                 of unreported program
       income collected.
   7. Require the Office to amend its Federal Financial Reports
   7.                                                       Reports to include
                                                                       include program income
       earned
       eamed fonn
              form FY 2003 to FY 2011.
                                     201 1.
   8. Require the Office to report program income earned
   8.                                                 eamed for
                                                              for FY 2012 and future reporting
       periods.
   9. Work with the Office to resolve the unreported
   9.                                        unrepofied program income of$113,345.
                                                                           of $113,345.
   10. Require the Office to establish adequate controls by maintaining reports, cashier
                                                                                   cashier receipts,
       and deposit slips to ensure that the amounts collected
                                                     collected are reported and deposited.
                                                                                 deposited.
   11. Require the Office to deposit all program income into the Election Fund.
   12. Require the Office to stop depositing   HAVA --
related fees into the Imprest Fund
                                   depositing HAVA
       Checking
       Checkins 
Account.
                 Account.
                                                                                               APPENDIX A-1



   13.
   13. Require
        Require the
                 the Joint
                      Joint Board
                             Board of ofElections
                                        Elections to to establish
                                                         establish safeguards
                                                                   safeguards to to mitigate
                                                                                    mitigate the
                                                                                              the potential
                                                                                                   potential
        fraudulent use
        fraudulent       ofthe
                    use of       lmprest Fund
                            the Imprest      Fund Checking
                                                   Checking Account.
                                                               Account.
   14.
    14. Require
        Require the   Office to
                 the Office       immediately conduct
                              to immediately                   physical inventory
                                                   conduct aa physical   inventory toto gain
                                                                                        gain control
                                                                                              control of   and
                                                                                                        ofand
        account  for equipment.
        account for   equipment. The       inventory should
                                    The inventory      should include    property descriptions,
                                                               include property     descriptions, serial
                                                                                                    serial
        numbers,   identification numbers,
        numbers, identification      numbers, source
                                                  source of
                                                          of property,
                                                             property, acquisition
                                                                        acquisition dates,
                                                                                      dates, property
                                                                                             property location,
                                                                                                         location,
        cost,
        cost, and  condition.
              and condition.
   15.  Require the
   15. Require        Office to
                 the Office   to conduct      physical inventories
                                  conduct physical      inventories at
                                                                     at least
                                                                        least once
                                                                              once every
                                                                                     every two
                                                                                            two (2)
                                                                                                  (2) years
                                                                                                      years and
                                                                                                              and
        reconcile to
        reconcile  to property
                      property   records.
                                 records.
   16.
   16. Require the
                 the Office
                      Office to
                              to reconcile any any equipment
                                                    equipment previously disposed
                                                                              disposed ofof and
                                                                                            and adhere
                                                                                                  adhere toto
        Federal  guidelines for
        Federal guidelines    for future
                                   future disposals.
                                            disposals.
   17.
   17. Require the    Govemment of
                 the Government        olthe
                                          the Virgin Islands
                                                       Islands to
                                                                to maintain expenditures
                                                                              expenditures at at the FY 2000
        expenditure
        expenditure level
                      level as
                             as required by HAVAHAVA 254(a)(7).
                                                          25a@)Q).
   18.
   18. Address the    failure to
                  the failure  to meet established
                                          established expenditure
                                                        expenditure requirements through its     its audit
                                                                                                     audit
        resolution process.
   19.  Require the
   19. Require        Office to
                 the Office   to adhere
                                  adhere to administrative
                                               administrative complaint
                                                                complaint procedures
                                                                            procedures in in accordance
                                                                                             accordance with
        HAVA 402(a): and
        HAVA
   20. Require the Office to maintain a complete complaint file that includes, at aa minimum, all
        complaints, responses, records of
        complaints,                              hearings, and outcomes
                                               ofhearings,


Election Systems of the Virgin Islands Response


               No. l
Recommendation No.1

                    ofthe
The Election System of the Virgin Islands (ESVI) concurs.
                                                 concurs.

       Plan: ESVI will develop procedures
Action Plan:                      procedures to address hiring employees
                                                               employees with the HA
                                                                                  HAV
                                                                                  HAVA VA
                    certification, file management
             funds, certification,      management and the maintenance of   supporting
                                                                         of supporting
             documentation relative to pawoll
             documentation               payroll costs.

    Date: January
Due Date:         31,2014
          January 31, 2014

Person Responsible: Deputy Supervisor
Person                     Supervisor of
                                      of Elections
                                         Elections


Recommendation No.
Recommendation No.22

The Election System
             System ofthe
                    of the Virgin Islands (ESVI) concurs.
                                                 concurs.

Action Plan:
       Plan: once
             Once an employee is hired,
                                 hired, certification
                                        certification of payroll will be implemented
                                                      of payroll         implemented to ensure
                                                                                        ensure
             compliance with the HAVA
             compliance          HAV
                                 HA  VA program.
                                         program.

Due Date:
    Date: January
          January 31, 2014
                      2014

Person Responsible:
Person Responsible: Deputy Supervisor
                           Supervisor of
                                      of Elections
                                         Elections
                                                                                       APPENDIX A-1


Recommendation No.
Recommendation No.33

The Election System
The          System of the Virgin Islands (ESVI) concurs.
                    ofthe

Action Plan:   ESVI will obtain
       Plan: 	 ESVI                    maintain a copy of
                          obtain and naintain                  Property & Procurement
                                                        of the Property     Procurement and the
               federal guidelines
               federal                       purchases. ESVI will
                       guidelines on small purchases.                             employees of
                                                                will inform all employees    of the
               procedures
               procedures  and  ensure  these guidelines
                                              guidelines are adhered
                                                             adhered   to for all small
                                                                                  small purchases.
               ESVI will
               ESVI  will institute aa management                              reviewing all
                                                    quality control check by reviewing
                                       management quality
               purchases requests monthlY.
               purchases            monthly.

    Date: October 30, 2013
Due Date:

Person Responsible: Deputy Supervisor
Person Responsible:        Supervisor of
                                      of Elections
                                         Elections


Recommendation NO.4
               No. 4

The Election System
             System of the Virgin Islands (ESVI) concurs.
                    ofthe                        concurs.

Action Plan:	 ESVI will develop internal
Action Plan:                     intemal fiscal control measures and adhere to
              the Department  of
                  Department of  Finance regulations
                                         regulations on purchase
                                                         purchase orders.
                                                                  orders. ESVI will
              ensure all documentation    attached with requests, i.e. receipts, invoice,
                         documentation is attached
              and approved contract with signature page. Files will be maintained
                                                                         maintained as per
              HA
              HAVAVA guidelines. ESVI will conduct quarterly inspection.

    Date: November
Due Date: November 30, 2013

                                      & Administrative
Person Responsible: Deputy Supervisor & Administrative Assistant


Recommendation No.5
               No. 5

The Election System ofthe Virgin
                          Virgin Islands (ESVI) concurs.
                                                concurs.

       Plan:	 ESVI will complete FY 2012 Federal Financial Report and follow the HA
Action Plan:                                                                     HAVA
                                                                                    VA
              scheduled
              scheduled reporting
                        reporting periods.

    Date: November 1,
Due Date:             2013
                   1,2013

                                      & Supervisor of
Person Responsible: Deputy Supervisor &               Elections
                                                   ofElections


Recommendation No.6
               No. 6

The Election System of the Virgin Islands (ESVI) concurs.
                                                                                            APPENDIX A-1



Action Plan: ESVI
Action Plan:  ESVI has
                    has obtained
                         obtained aa copy
                                       copy ofEAC
                                              of EAC Advisory
                                                        Advisory 07-002
                                                                    07-002 dated
                                                                            dated March
                                                                                   M arch 20,  2007 -­­
                                                                                            20,200'1
              "Program Income
             "Program     Income and
                                  and Set    -off of
                                         Set-off   of Cost
                                                      Cost Incident
                                                            lncident to
                                                                      to Program
                                                                         Program Income"
                                                                                   Income" and     will
                                                                                              and will
              accurately determine
             accurately    determine the
                                       the total
                                            total amount
                                                   amount ofof unreported
                                                               unreported  program
                                                                            program   income
                                                                                       income  going
                                                                                                going
              forward. ESVI
             forward.           will obtain
                         ESVI will    obtain all
                                               all bank
                                                   bank statements
                                                         statements for
                                                                      for FY
                                                                          FY 2012
                                                                              2012 toto determine
                                                                                        determine the
                                                                                                    the
              amount of
             amount        program income
                       of program    income collected
                                               collected and
                                                           and then
                                                                then complete
                                                                     complete the    IIAVA
                                                                                the HA
                                                                                    HAV  V A Report.
                                                                                              Repo(.
             Henceforth,
              Henceforth, ESVI    will comply
                             ESVI will   comply with     HAVA
                                                    with HA
                                                         HAV  VA requirements
                                                                   requirements and
                                                                                  and submit
                                                                                        submit timely
                                                                                                timely
              Reports.
             Reports.

Due I)ate: December
Due Date:           1,2013
           December 1,2013

Person Responsible: Supervisor
Person Responsible:            of Elections
                    Supervisor of Elections


               No. 7
Recommendation No.7

The Election System
The Election        ofthe
             System of                    (ESVI) concurs.
                                  Islands (ESVI)
                       the Virgin Islands        concurs.

       Plan:	 ESVI will review and amend the Federal Financial Reports from FY 2003-
Action Plan:                                                                           2003­
              201 I to
              2011  	 include program income as applicable.
                                                    applicable. ESVI will obtain copies ofofall
                                                                                             all
              relevant financial reports, and bank statements to assist in the preparation of
                    reports. ESVI will coordinate with the HA
              these reports.                                  HAVA
                                                              HAVV A point of
                                                                            of contact
                                                                               contact to
              receive any additional guidance on the way forward.
                                                             forward. ESVI will submit
                             03-FY
              corrected FY 03-      1 I reports once this process is completed.
                                FY 11

    Date: August 31,
Due Date:        31,2014
                     2014

Person Responsible: Supervisor
Person                         of Elections
                    Supervisor of Elections


Recommendation No.
               No.88

The Election System of the Virgin Islands (ESVI) concurs.
             System of                           concurs.

Action Plan:
       Plan: 	 ESVI will
                      will obtain
                           obtain copies of
                                         ofthe           earned financial
                                            the interest eamed    financial reports from the
               Department
               Department of of Finance and the current
                                                 current bank statement
                                                                statement from First Bank to
               verify      amount of
               verify the amount   of funds applicable
                                            applicable to this           ESVI will
                                                                report. ESVI
                                                           this report.
               prepare the FY 2012 report to reflect program
               prepare                                            income. ESVI will ensure
                                                       program income.
               program
               program income
                         income is reported
                                    reported accurately
                                             accurately on
                                                         on all reports going forward.

Due Date: November
Due       November 15,2013

Person
Person Responsible:
       Responsible: Deputy Supervisor & Supervisor
                    Deputy Supervisor   Supervisor

Recommendation
Recommendation No.
               No.99

The
The Election System of
    Election System    the Virgin
                    ofthe         Islands (ESVI)
                           Virgin Islands (ESVI) concurs.
                                                 concurs.
                                                                                    APPENDIX A-1




Action Plan: ESVI
Action Plan:       will work
             ESVI will  work with
                               with the HAVA
                                    the HA  VA Point
                                                 Point of
                                                       of Contact
                                                          Contact to
                                                                   to resolve
                                                                      resolve the
                                                                               the unreported
                                                                                   unreported
             program
             program income
                      income ofof $113,345.
                                  $ I 13,345. ESVI   will conduct
                                               ESVI will  conduct extensive
                                                                   extensive research,
                                                                               research, review
                                                                                         review
             and
             and reconcile
                 reconcile the
                           the unreported
                                unreported program
                                             program income.
                                                      income. Next
                                                               Next step,
                                                                       step, ESVI  will prepare
                                                                             ESVI will  prepare
             and
             and submit
                 submit the
                         the reports
                             reports with
                                      with the
                                           the accurate
                                               accurate amount
                                                         amount of
                                                                of program
                                                                     program income.
                                                                               income.

Due Date: June
Due Date:          22.2014
           Jlur:re 22, 2014

Person Responsible: Deputy Supervisor & Supervisor
                           Supervisor & Supervisor


Recommendation No. l0
               No. 10

The
The Election System ofthe
             System of                    (ESVI) concurs.
                       the Virgin Islands (ESVI) concurs.

       Plan: ESVI will purchase QuickBooks
Action Plan:                       QuickBooks software and install the program the program
             on the server to provide accessibility
                                       accessibility to all employees.
                                                            employees. ESVI will utilize the
             Enterprise Resource Plarming
                                   Planning module which is hosted by the Department of
                               FIAVA
             Finance to track HA
                               HAV VA and the Election System funds.
                                                                  funds. ESVI will segregate the
             roles and responsibilities relevant to the receipt and processing of cash.
                                                                                    cash. ESVI will
             establish adequate controls for the processing of cashier receipts and deposit slips.
             ESVI will maintain the applicable
                                      applicable files and reports and conduct monthly,
             quarterly and armual
             quarterly              reviews. ESVI will develop internal
                            arnual reviews.                        intemal fiscal control measures
             to ensure this deficiency
                            deficiencv is not repeated.
                                              reneated.


    Date: December 31, 2013
Due Date:

Person Responsible: Supervisor
                    Supervisor of
                               of Elections
                                  Elections


Recommendation No.  II
               No. III  l
The Election System ofthe
             System of the Virgin Islands (ESVI) concurs.
                                                 concurs.

Action Plan:
       Plan: ESVI will obtain     copy ofthe September
                         obtain a copy       September Bank
                                                         Bank Statement
                                                               Statement and begin the process
             ofdepositing
             of depositing all program
                               program income
                                        income into the Election Fund Account.
                                                                       Account. ESVI
                                                                                  ESVI will
             develop procedures
             develop  procedures to ensure this process is implemented
                                                           implemented and followed
                                                                            followed in the
             future.  ESVI will review
             future. ESVI        review bank
                                        bank statement
                                             statement monthly
                                                       monthly and prepare
                                                                     prepare aa quarterly report
             for the Joint
                     Joint Board
                           Board to review.
                                    review.

Due Date:
    Date: October
          October 30.
                  30, 2013

Person
Person Responsible:
       Responsible: Deputy Supervisor
                           Supervisor and Election
                                          Election Assistant
                                                   Assistant
                                                                                      APPENDIX A-1



Recommendation No.
Recommendation No. 12
                   I2


The Election System
The Election        of the
             System of     Virgin Islands
                       the Virgin         (ESVI) concurs.
                                  Islands (ESVI) concurs.

Action Plan:	 ESVI
Action Plan:        will immediately
              ESVI will  immediately cease
                                        cease depositing  HAVA
                                              depositing HA
                                                          HAVV A related
                                                                  related fees
                                                                          fees into
                                                                               into the
                                                                                    the Imprest
                                                                                         Imprest
              Fund
              Fund Checking   Account. ESVI
                   Checking Account.             will develop
                                          ESVI will   develop procedures
                                                              procedures toto establish
                                                                              establish
              proper protocol in
              proper protocol  in designating
                                  designating distinct
                                               distinct funding
                                                        funding accounts.
                                                                accounts. ESVI     will conduct
                                                                            ESVI will   conduct
              monthly reviews
              monthly  reviews and   reconciliations.
                                 and reconciliations.

    Date: October
Due Date:         15,2013
          October 15, 2013

Person Responsible: Supervisor
Person              Supervisor of
                               of Elections
                                  Elections


Recommendation No. l3
               No. 13

                    of the Virgin Islands (ESVI) concurs.
The Election System of

       Plan:	 ESVI will discuss at the Joint Board meeting scheduled
Action Plan:                                                 scheduled for 3'd
                                                                           3'd October the
              requirement and importance of establishing safeguards to mitigate
                                                                         mitigate the
              potential fraudulent use of
                                       of the Imprest Fund.
                                                                               th
              The Joint Board members needs to prepare a proposal to the 30 30s Legislature
              to amend Title 33 of
                                 of Virgin Islands Code to have this law changed.
              Once the proposal is submitted to the Legislature,
                                                     Legislature, ESVI will follow up with
              the Legislative Branch until this law is amended.
                                                       amended. Effective immediately,
              ESVI will require two signatures, a Board Chair and the Supervisor, prior to
                  rvithdrawal of
              the withdrawal  of any funds from the Imprest Account.

    Date: January 1,
Due Date:         l, 2015

Person Responsible: Joint
Person              Joint Board Chair


Recommendation
Recommendation No.
               No. 14
                   I4


The Election System of the Virgin Islands (ESVI) partially concurs. Last
             System of                                              Last inventory
                                                                         inventory was
                                                                                   was
conducted on March 5, 2008 by Property
                               Property and Procurement.

Action Plan:   ESVI will
       Plan: 	 ESVI  will develop
                           develop procedures
                                   procedures for receiving, inventorying,
                                                              inventorying, storage
                                                                             storage and
                                                                                     and
               disposal of
                        of local and federal government
                                             government propefty,
                                                          property, to gain control of
                                   equipment. ESVI will conduct
               and account for all equipment.                                   inventory of
                                                           conduct aa physical inventory
               all ESVI
                   ESVI equipment
                         equipment on both islands.    ESVI will
                                              islands. ESVI  will establish
                                                                  establish protocols
                                                                            protocols for
               conducting periodic
               conducting   periodic inventory
                                     inventory going
                                                going forward.

Due Date:
    Date: June 30"
               30, 2014
                   2014
                                                                                           APPENDIX A-1


 PersonResponsible:
Person               DeputySupervisor
        Responsible:Deputy  SupervisorofofElections
                                           Elections


RecommendationNo.
Recommendalion No. I5
                    15

 TheElection
The ElectionSystem
             Systemofthe
                   of theVirgin
                         VirginIslands
                                Islands(ESVI)
                                        (ESVl) concurs'
                                                concurs.

Action Plan:
Action         ESVlwill
       Plan: 	ESVI   will conduct
                           conductphysical
                                  physical inventories
                                            inventories biennially
                                                        biennially and           to property
                                                                       reconcileto
                                                                   andreconcile  to property
               records.
              records.

Due 	Date:
Due        December 31.2015
     Date: December 31, 2015

Person Responsible:
Person              Deputy Supervisor
       Responsible: Deputy Supervisor of
                                      ofElections
                                         Elections


Recommendation
Re commendation     No. 16
                    No. I6


The Election
The Election System
             System ofthe
                    of the Virgin Islands (ESVI) concurs'

                           Virgin Islands        concurs.

Action Plan:
Action         ESVI will
       Plan: 	 ESVI  will obtain
                           obtain aa copy
                                     copy ofthe
                                          of the federal guidelines
                                                         guidelines on disposal of
                                                                    on disposal of equipment
                                                                                   equipment
               and adhere to the guidelines going forward. ESVI will review documentation
               andadheretotheguidelinesgoingforward.Esvlwillreviewdocumentation
               of previously disposed
               ofpreviously    disposed equipment'   annotate accordingly and maintain the
                                         equipment, 
annotate                            the
                                                                                         the

               relevant
               relivant files.  gSVt
                        files. ESVI will prepare
                                           prepare reports on disposed  equipment'  if applicable'
                                                               disposed equipment, if applicable.
                                                                                       applicable.


Due  Date: November
Due 	Date: November 15,2013
                    15, 2013

Person Responsible: Deputy
Person Responsible: Deputy Supervisor and Administrative
                                          Administrative Assistant


Recommendation
Recommendation No.
               No. 17
                   
17

The
The Election
    
Election System
              System of
                     of the
                        the Virgin
                            Virgin Islands
                                   Islands (ESVl)
                                           (ESVI) concurs.
                                                  concurs'


Action Plan:	 ESVI
Action Plan:  ESVI will
                     will remind
                          remind thethe Government
                                        Govemment
 of of the  Virgin Islands
                                                          the Virgin     Islands of   the requirement
                                                                                  of the   requirement
              to
               to comply
                  	comply with
                           with HAVA
                                 HAVA 254(a)
                                          25a@) (7).
                                                  Q)' ESVI     will ensure
                                                       ESVI will       ensure the
                                                                               the Annual      Budget
                                                                                   Annual Budget
              report  addresses   this federal mandate
               report ad'dresses this federal mandate    and
                                                           and  it
                                                               it  is
                                                                    is constantly
                                                                       constantly  on
                                                                                   on    the
                                                                                        the   forefront
                                                                                             forefront
              when
               wfien briefing
                      briefing the
                                the Legislature.
                                     Legislature. ESVI   will inform
                                                  ESVI will    inform the     Offrce of
                                                                          the Office       Management &&
                                                                                        of Management
              Budget
               Budget and
                        and Department
                             Department of of Finance
                                              Finance ofthis     HAVA funding
                                                       of this HAVA                    law'
                                                                            funding law.

Due 
Date: January
Due Date:   January 1,2014
                     1,2014

Person  
Responsible: The
 person Responsible:  TheLegislature,
                          Legislature, Joint
                                        Joint Board,
                                              Board, and
                                                      and Supervisor
                                                           Supervisor of Elections
                                                                      of Elections



Recommendation
 RecommendationNo.  l8
                No.18
                                                                                   APPENDIX A-1




                    ofthe
The Election System of the 	Virgin         (ESVI) concurs.
                            Virgin Islands (ESVl) concurs.

       Plan: ESVI will address the deficiencies
Action Plan:                         deficiencies with our designated
                                                           designated Election Assistance
             Commission
             Commission representative once the final report is received.
                                                                  received. ESVI's goal is
             to correct the deficiencies
                            deficiencies and not have any repeated deficiencies.
                                                                    deficiencies.

    Date: March 31, 2014
Due Date:

                    Supervisor of
Person Responsible: Supervisor of Elections
                                  Elections


Recommendation No.
               No. 19

                    ofthe
The Election System of the Virgin Islands (ESVI) concurs.
                                                 concurs.

       Plan:	 ESVI will adhere to administrative complaint procedures
Action Plan:                                                   procedures in accordance
                                                                             accordance with
              HAVA 402 (a). (a). This policy is presently posted on our website; however, we will
                                                                      encourage the utilizing of
              ensure the citizens are aware, educated on its use and encourage
              this process.        witl create or revise complaint forms to establish
                   process. ESVI will                                        establish the proper
              protocol use ofof administrative complaints. ESVI will maintain compliance
                                                                                 compliance with
              HAVA
              HAV
              HA  V A procedures
                      procedures   and guidelines.

    Date: November 30, 2013
Due Date:

                               of Elections
Person Responsible: Supervisor of


Recommendation No.
               No. 20

The Election System ofthe
                    of the Virgin
                           Virgin Islands (ESVI) concurs.

       Plan:	 ESVI will maintain a complete complaint file that includes all complaints,
Action Plan:                                                                   complaints, at a
              minimum, all responses, records of of hearings and outcomes. ESVI will emphasize
              the importance ofof this requirement
                                       requirement to all staff
                                                          staff members, Board members and
              election part-time
                       part-time  workers.  ESVI  will maintain  compliance      HAVA
                                                                 compliance with HA
                                                                                 HAVVA
              procedures
              procedures and guidelines.

    Date: November
Due Date: November 30, 2013
                   30,2013

Person Responsible: Supervisor of
                               of Elections
                                  Elections
                                                                                                       APPENDIX A-1
                                    GOVERNMENT
                                     GOVERNMENTOFOF 

                         THEVIRGIN
                        THE VIRGINISLANDS
                                   ISLANDS OF THE UNITED
                                          OF THE  UNITED STATES
                                                         STATES 

               -S.Ie*isn                                                                  prlarlr
                                   $1gxttm nf t\e                      Sirgin
                                              •

                                          -__=e-
                       P.O.
                        P.O.Box
                              Box1499·   Knosrrrr.ST.
                                  1499.K,NGSHILL'         Cnorx. U.S.
                                                     Sr. CROIX'                  lsLANDs 00851·1499
                                                                        VIBGNISLANDS
                                                                  U.S. V,RG,N             00851-l4gg
                            P.O.
                             P.O.Box   6038.• ST.
                                  Box 6038         Trorars.U.S.
                                               Sr.THOMAS'   U.S. VIRGIN    lsur.ros 00801·6038
                                                                  Vrncn ISLANDS      00801-6038




 Mr. Curtis
Mr.           Crider
      Curtis Crider
 Inspector General
Inspector    Ceneral
 U.S. Election
U.S.   Election Assistance
                 Assistance Conunission
                            Commission
Office   of Inspector
 Office of  Inspector General
                       General
  120I New    York Ave.
1201 New York Ave. NW-   NW- Suite
                               Suit€ 300
                                     300
 Washington, DC
Washington,     DC 20005
                     20005

September 27,2013
September 27, 2013



    I)raft Audit Report -* Election System of the Virgin Islands Compliance with
Re: Draft
Re:
    thc Help America Vote Act of 2002
    the
                VI-RR-OIG-OO1-201 3
    Report No. VI-RR-OIG-001-2013


     Inspector General Crider:
Dear Inspector

As the new Supervisor
             supervisor of
                         of the Elections Systems
                                           Systems of       virgin Islands
                                                     of the Virgin                   effective August
                                                                   Islards (ESVI) effective    August
19,2013,I
19,2013, I  have  reviewed
                  reviewed   the audit report findings:rnd
                                       report findings and provided
                                                            provided responses
                                                                      responses roto each
                                                                                     each deficiency
                                                                                           deficiency in
                                                                                                      in
order to maintain
         maintain compliance with federal
                                      federal regulations.
                                              regulations. Enclosed
                                                            Enclosed please
                                                                      please find
                                                                             fmd details outlining
                                                                                           outlining
ESVI   responses to your
ESVI responses      your proposed corrective
                                     corrective action.
                                                 action. The
                                                         The ESVI agree
                                                                    agree with
                                                                          with the conclusion andand will
                                                                                                     will
work  to minimize      impact of
work to minimize the impact        any future audit
                                of any         audit findings.
                                                     findings.

'rhe Election System ofthe virgin Islands
The Election System of the Virgin Islands is   is dedicated
                                                  dedicated to upholding
                                                                  upholding an
                                                                             an effective
                                                                                effective system
                                                                                           system ofof
compliance
compliance conceming
              concerning the
                           the administration
                               administration ofthe
                                               of the HAVA
                                               ofthe   HA VA funds,
                                                                funds, and
                                                                        and to
                                                                            to u.orking
                                                                               working diligently
                                                                                         diligently to
                                                                                                     to
improving    our operations.
 improving our operations. ESVI
                              ESVI also  are thankful
                                    also are thankful for
                                                        for the
                                                             the professional
                                                                 professional manner
                                                                               manner inin which
                                                                                        in which you
                                                                                                   you and
                                                                                                        and
your  staffconducted   the  review, the granting
 your staff conducted the review, the granting ofanof an extension,
                                                         extension, and
                                                                      and your
                                                                          your readiness
                                                                                readiness toto share
                                                                                               share best
                                                                                                     best
Dractlces.
practices.




                             Ttr:
                             T~L: (340)
                                   (340) 773 1021
                                         773·1021          .- Fnx:
                                                              FAx: (340)
                                                                    (340) 773-4523
                                                                          773-4523
                                                                                   APPENDIX A-1




 Ifyou
 If you have any questions or comments regarding
                                       regarding our response to the audit report, please contact
 the undersigned
     undersisned at 340-773-1021.



 Sincerely,
 Sincerely.
  '1t 	                  ,4
                        ../
'.,
            ,-1 /
      'e6(,t ,Je.     .n
Caroline F. Fawkes
Supervisor
Supervisor - Election System of the VI
                             ofthe

Enclosure
Enclosure



Cc:	 Ms. Alecia M. Wells, Joint Chairperson
Cc:                             Chairperson
     Mr. Arturo Watlington, Jr. STT-STJ District Chairperson
                Watlington, Jr.                   Chairpenon
     Mr. Adelbert
         Adelbert M. Bryan, SIX
                             STX District Chairperson
                                           Chairperson
                                                                        APPENDIX A-2




                    EAC RESPONSE TO THE DRAFT AUDIT:
                    OIG Performance Audit Report on the Administration of
                    Payments Received Under the Help America Vote Act by the
                    Election System of the Virgin Islands
                                                  Islands,, for the Period
                    September 2003 through December 2007. 2007.

October 29 , 2013

MEMORANDUM

To:
To :          Curtis Crider 

              Inspector General 


From : 	               Miller,, chief
             Alice P . Miller   chiefM
                                     M Jt
                                       JtinclOfficer
                                          rli.Officer &
             Acting Executive D~o f~ _..      _..
Subject: 	   Draft Performance Audit Report - "Administration of Payments
             Received Under the Help America Vote Act by the Election System
             of the Virgin Islands
                           Islands""

Thank you for this opportunity to review and respond to the draft audit report for
the Election System of the Virgin Islands (ESVI) .

The Election Assistance Commission (EAC) will work with the (ESVI) to ensure
appropriate corrective action .
                           Help to ensure efficient, effective, and transparent EAC operations and
OIG’s Mission
                           programs




                           Copies of OIG reports are available on the OIG website,
                           www.eac.gov/inspector_general/

                           Copies of OIG reports can be requested by e-mail: (eacoig@eac.gov).

                           Mail orders should be sent to:
Obtaining Copies
                                U.S. Election Assistance Commission

of OIG Reports
                                Office of Inspector General

                               1335 East West Highway - Suite 4300

                               Silver Spring, MD 20910


                           To order by phone: Voice:     (301) 734-3104
                                                  Fax:   (301) 734-3115



                           By Mail:   U.S. Election Assistance Commission
                                      Office of Inspector General
To Report Fraud, Waste                1335 East West Highway - Suite 4300
and Abuse Involving the               Silver Spring, MD 20910
U.S. Election Assistance
                           E-mail:    eacoig@eac.gov
Commission or Help
America Vote Act Funds     OIG Hotline: 866-552-0004 (toll free)


                           On-Line Complaint Form: www.eac.gov/inspector_general/


                           FAX: (301)-734-3115

